                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: Al0040028                                                                     Page 1 of 1



        Our office conducted an investigation into an allegation of plagiarism, in a PI's proposal, 1 that
        was subsequently funded under an award to a small business. 2The investigation substantiated the
        PI plagiarized text in the funded proposal as well as an unfunded proposae submitted by the PI.

         Based on our investigative report, NSF made a finding of research misconduct and sent the PI a
         letter of reprimand. NSF required the PI to complete a course in the responsible conduct of
         research and submit certification assurances for his NSF proposals for a period of two years.
         NSF prohibited the PI from serving as an NSF reviewer, advisor, or consultant for one year.

         The report of investigation and the Deputy Director's memo are attached. Accordingly, this
         investigation is closed and no further action will be taken.




         2




NSF OIG Form 2 (11/02)
                                    .ONALSCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230

                                          JAN 1 0 2013


    OFFICE OF THE
  DEPUTY DIRECTOR




VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




       Re:      Notice of Research Misconduct Determination


Dear-
       In 20. and 20. you served as a Principal Investigator ("PP') on two Small Business
Innovation Research Phase I            submitted for            to the National Science Foundation
         entitled,                                                             and
                                                                  aoc:umentc::a in
                                                  lDSJlect,or U·eneltal ("OIG"), these proposals
contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CPR§ 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit.'' 45 CFR § 689.l(a)(3). A finding of research misconduct
requires that:

        (1) There be a significant departure from accepted practices of the relevant research
             community; and
        (2) The research misconduct be conunitted intentionally, or knowingly, or recklessly; and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposals contained 152 unique lines oftext, nine embedded references and two
tables copied from 18 source documents. By submitting proposals to NSF that copied the ideas
or words of another without adequate attribution, as described in the OIG Investigative Report,
you misrepresented someone else's work as your own. Your conduct unquestionably constitutes
                                                                                              Page2
plagiarism. I therefore conclude that your actions meet the definition of "research misconduct"
set forth in NSF's regulations.

       Pursuant to NSF regUlations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689 .2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plaghi:rism was committed knowingly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and ill) that can be
taken in response to a fmding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding~ and requiring correctionto the
research record. 45 CFR § 689.3(a)(2). Group Ill actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants~ and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
kriowingly. I have also considered the fact that your misconduct was part of a pattern of
plagiarism. In addition, I have considered other relevant circumstances. 45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

        (1) Until January 15,2015, you must provide certifications to the OIG that any proposal
            or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
            fabricated material;

        (2) By January 15,2014, you must complete a responsible conduct of research training
            program, and provide proof of.its completion to the OIG; and

        (3) Until January 15, 2014, you are prohibited from serving as a reviewer, advisor, or
            consultant for NSF.

        The certifications, assurances, and written proof of attendance should be submitted in
writing to NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard,
Arlington, Virginia 22230.
                                                                                           Page3
Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 .Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become fmal.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call Eric S. Gold, Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                     Cora B. Marrett
                                                     Deputy Director.




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
CONFIDENTIAL                                                         CONFIDENTIAL


                                   Executive Summary


Allegation:         Plagiarism of text from 10 Sources into a NSF awarded proposal to a small
                    business.

OIG Inquiry:        We identified an awarded proposal (Award) with 92lines and 3 embedded
                    references allegedly plagiarized from 10 Sources. We contacted the Subject,
                    but his explanation did not resolve the alleged plagiarism. Because the
                    Subject's employer is a small business, we initiated our own investigation.

 OIG's              The Subject admitted he failed to properly cite some sources in the Award
Investigation:      but disputed some of the allegations of plagiarism. He claimed some of the
                    sources had been referenced. However, the Subject did not use quotation
                    marks or any other method to distinguish between his own words and the
                    words of others. We also reviewed a pending proposal from the Subject and
                    found 60 additional lines of copied text, including 6 embedded references
                    and 2 tables. Consequently, we found a total of 152 lines in the Award and
                    Proposal that were not properly distinguished or cited.

OIG's Assessment:   •    The Act: Plagiarism of 152 unique lines and 9 embedded references
                         from 18 Sources.
                     •   Significant Departure: The Subject's actions are a significant
                         departure from accepted practices of the research community.
                     •   Intent: The Subject acted knowingly.
                     •   Pattern: Additional plagiarism found in a recent proposal submitted to
                         NSF.
                     •   Standard of Proof: The preponderance of the evidence supports a
                         finding of research misconduct.


OIG                  •   Send the Subject a letter of reprimand notifying him that NSF has made
Recommendation:          a finding of research misconduct.
                     •   Require the Subject to certify completion of the RCR training program
                         and provide documentation of the program's contents within 1 year of
                         NSF's finding.
                     •   Require the Subject to submit certifications for 2 years.
                     •   Bar the Subject from participating as a reviewer, advisor, or consultant
                         for NSF for a period of 1 year.




                                              1
CONFIDENTIAL                                                                         CONFIDENTIAL


                                     OIG's Inquiry and Investigation


        We identified potential plagiarism in a funded NSF SBIR proposal 1 (Award), specifically,
92 lines and three embedded references 2 allegedly copied from 10 sources. We wrote3 to the PI4
(the Subject) seeking his explanation about the questioned text which appeared to be improperly
cited and indistinguishable from his own original text.

        In his response, 5 the Subject explained he cited most of the sources as references, but he
had not cited Source A because the text was in the abstract where he believed citations are not
normally used. Although he stated he cited several of the sources as references, he offered no
explanations for failing to provide proper attribution for the copied text or for failing to
distinguish the words of others from his own. He further claimed that text from Source A, I, and
J consisted of generic statements that did not need to be cited.

        The Subject's response did not dispel the allegation of plagiarism, so we initiated an
investigation. 6 Our review indicated, contrary to the Subject's assertion, citations can be used in
the proposal abstract. More importantly, the material from Source A, which was used in the
abstract, is repeated in the body of the proposal without proper reference or demarcation,. Our
review also indicated that text from Sources A I and J were not generic and should have been
attributed appropriately to the original authors with the verbatim text either quoted or indented to
indicate that the words were not his own. Although, Sources C, D, E, G and H were cited as
references in the Award, the Subject again did not provide appropriate attribution to the copied
text and any citations to those sources were not near the verbatim copied text.

         The Subject correctly stated that Source F is identical to Reference 19. However, the
 citation for Reference 19 is not near the copied, verbatim text. 7 Instead, the two citations near
-the verbatim text consist of embedded references taken from Reference 19.
                                                                                            8
        The table below shows the copying by the Subject from Sources A-J:




  An embedded reference is a citation to a reference appearing within the stretch of copied text. The placement and
reference are identical in both the source and the proposal.
3
  Tab 2 OIG          letter to the Subject.
4
5
  Tab 3, The Subject's response.
6
  We did not refer this matter because the PI works for a small business which lacks the resources to conduct an
independent investigation.
7
  The copied text from Source F occurs on pages 4, 6, and 8. Reference 19 is not cited until page 14.
8
  Tab 4, Copied Sources A-J.

                                                         2
CONFIDENTIAL                                                                            CONFIDENTIAL


                       Section                              Source                         Award
       Background, potential applications        A   (website)               7 lines
       Background                                B   (proposal)              5.5 lines
                                                                                     9
       Background                                C   (article)               3 lines
       Background                                D   (article)               1.5 lines
       Background                                E   (technical report)      l3 lines; 1 embedded reference
       Research objectives, plan,
       methodology                               F (article)                 13 lines; 2 embedded references
       Methodology                               G (article)                 26lines
       Methodology                               H (article)                 9 lines
       potential applications                    I (book)                    8.5 lines
       potential applications                    J (website)                 6 lines

       Totai(UNIQUE) Lines:                                                   92 lines; 3 embedded references



       As a part of our investigation, OIG reviewed another of the subject's proposals 10 and
detected approximately 60 lines, 6 embedded and 2 tables copied from 8 sources (Sources K
through S) 11 . The table below shows the material apparently copied and improperly cited from
Sources K through S.

                    Section                       Source                         Proposal 2 (pending)
         background                    K     (Article)               2 lines
         background                    L    (Wikipedia Article)      8 lines; 1 table
         background                    M     (Article)               2 lines
         background & methodology      N     (Army Report)           5 lines
         background                    0    (Article)                25 lines; 3 embedded references; I table
         background                    P    (Article)                6 lines; 3 embedded references
         potential applications        Q    (Conference Paper)       6 lines
         potential applications        R    (Website)                6 lines

         Total (UNIQUE) Lines                                        60 lines; 6 embedded references; 2 tables

We note that the 2nd proposal was submitted after we contacted the Subject about the copied text
in the Award. 12 The Subject has not been "conscientious in avoiding this type of mistake in [his]
future proposals" as he claimed in his initial response. 13

                                                       OIG Assessment

        A finding of misconduct requires that: (1) there be a significant departure from accepted
practices of the relevant research community, (2) the research misconduct be committed


9
  Source Cis identical to Reference 3; thus the Subject properly cited, but did not properly differentiate this copied
text from his own words.
10
11
     Tab 7.
12
     Our letter was s e n t - ; the 2nd proposal was s u b m i t t e d - ·
13   Tab 3, p.2.

                                                             3
CONFIDENTIAL                                                                        CONFIDENTIAL


intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the evidence. 14

                                                     The Act

        In the first NSF proposal, the Subject failed to provide adequate attribution for text
copied from 10 source documents and failed to distinguish the copied text from his own original
words. The Subject admitted that he did not cite or wrongly cited Source A, B, and 1. 15 The
Subject's explanations for the other copied text were without merit and did not dispel the
allegations. The Subject failed to distinguish all of the copied text such that a reader would be
able to distinguish between the Subject's words and the words he copied from others.
Subsequently, the Subject submitted a second proposal with 60 lines of copied text including; 6
embedded references and 2 tables. In total, we found 152 lines undistinguished text with 9
embedded references from 18 Sources. The Subject's act meets NSF's definition ofplagiarism 16
and constitutes a significant departure from the accepted practices of the relevant research
community.



        According to his Biographical Sketches, 17 the Subject received his doctorate degree in
1996. He worked as a research associate at an American University from 1998 to 2002, and
published over 35 papers in peer-reviewed journals. As such, it is expected that the Subject
would have a strong working knowledge of scholarly standards and proper citation.
Furthermore, the act of copying and pasting materials from multiple sources into a single
proposal is an inherently knowing act. Therefore, we conclude that the Subject knowingly
copied material without providing proper citation.

                                               Standard o(Proo(

        The preponderance of the evidence supports that the Subject plagiarized 152lines with 9
embedded references from 18 Sources in the Award. As is evidenced by the Subject's admission
that he failed to properly cite sources, and our determination that he failed to demarcate or
distinguish the copied text from his own words. We find that the Subject's actions are a
significant departure from accepted practices of the relevant research community. We therefore
conclude that the Subject's actions constitute research misconduct.




14
   45 C.F.R. 689.2(c).
15
   Although he cited Source C he did not distinguish the copied text from his own words. Sources D and F are cited,
but not in close proximity to the copied text.
16
   " Plagiarism means the appropriation of another person's ideas, processes, results or words without giving
appropriate credit." 45 C.F.R. § 689.l(a) (3).
17
   Tab 5, from Section A. 9.5 of proposal and CV from prior proposal at Tab 8.

                                                         4
CONFIDENTIAL                                                                CONFIDENTIAL


                                  OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
                       .              18
             re1evant cucumstances.


                                               Seriousness

        The Subject copied 152lines oftext from 18 different sources into the Award. In doing
so, the Subject presented the copied and improperly cited text to NSF proposal reviewers as his
own. NSF Grant Proposal Guide (GPG), states:

           NSF expects strict adherence to the rules of proper scholarship and attribution. The
           responsibility for proper scholarship and attribution rests with the authors of a proposal;
           all parts of the proposal should be prepared with equal care for this concern. Authors
           other than the PI (or any co-PI) should be named and acknowledged. Serious failure to
           adhere to such standards can result in findings of research misconduct. NSF policies and
           rules and research misconduct are the AAG Chapter VII.C as well as in 45 CFR Part 689
           (GPG Section I.D.3).

Based on the experience of this office, the Subject's actions are adequately serious to justify
action by NSF.


                                           Pattern o[Behavior

       The Subject's actions appear to be a part of a pattern of behavior. As evidenced by our
review of a pending proposal detected an additional 60 lines, 6 embedded and 2 tables copied
from nine sources. The second proposal was submitted after our investigation letter to him
regarding the awarded proposal. The subject's actions represent a pattern of plagiarism.




18
     45 C.F.R. 689.3(b).

                                                    5
CONFIDENTIAL                                                                             CONFIDENTIAL



                    The Subject's Response to OIG's Draft Investigation Report

        The Subject acknowledged he did not properly cite references and has begun to take
corrective actions to ensure he does not commit similar mistakes in any future submissions. The
Subject's response did not change our recommendations. 19

                                                 Recommendations

         Based on the evidence, OIG recommends that NSF:

         •   Send the Subject a letter of reprimand notifying him that NSF has made a finding of
             research misconduct. 20
         •   Require the Subject to certify to the Assistant Inspector General for Investigations
             (AlGI) his completion of the RCR training program and provide documentation of the
             program's content within 1 year ofNSF's finding? 1
         •   Require the Subject to submit a certification to the AlGI for each proposal, report, or
             other document he submits for 2 years from the finding that the contents are not
             plagiarized, falsified, or fabricated. 22
         •   Bar the Subject from participating as a reviewer, advisor, or consultant for NSF for a
             period of 1 year? 3




19
   Tab 9, Subject's response to draft report.
20
   A Group I action 45 C.F.R. 689.3(a)(l)(i).
21
   This action is not specified within the regulation (See 45 C.F.R. 689.3(a)). It is similar to Group I actions 45
C.F.R. 689.3(a)(l).
22
   This action is not specified within the regulation (See 45 C.F.R. 689.3(a)). It is similar to 45 C.F.R.
689 .3(a)(l )(iii).
23
   A Group III action 45 C.F.R. 689.3(a)(3)(ii).

                                                            6
